NO.

IN THE
SUPREME COURT OF THE UNITED STATES

THOMAS HOLDEN - PETITIONER
vs.
SHERRY BURT - RESPONDENT(S)
PROOF OF SERVICE
I, Thomas Holden, do swear or declare that on this dote i% -, 2020, as
required by Supreme Court Rule 29 I have served the enclosed mulioN FOR LEAVE
TO PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF CERTIORARI on each party
to the above proceeding or that party's counsel, and on every other person
required to be served, by depositing an envelope containing the above documents
in the United States mail properly addressed to each of them and with firstclass postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:
Dana Nessel / Michigan Attorney General / Attorney for Respondent(s)
P.O. Box 30217
Lansing, Michigan 48909 (517) 335-7021
I declare under penalty of perjury that the following is true and correct.
% , 2020
Executed on T
/s/

RECEIVED (I
OCT - 6 2020

RECEIVED
SEP 1 6 ?fm

